U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

April 7, 2020
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: Heon-Cheol Chi v. United States of America, No. 19-1000
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on February 6,
2020, and placed on the docket on February 10, 2020. The government’s response is now due,
after one extension, on April 10, 2020. We respectfully request, under Rule 30.4 of the Rules of
this Court, a further extension of time to and including May 8, 2020, within which to file a
response.
This extension is necessary because the attorneys with principal responsibility for final
preparation of the government’s response have been heavily engaged with the press of other matters
before the Court.
Counsel for petitioner does not object to this further extension of time.

Sincerely,

Noel J. Francisco
Solicitor General
cc:

See Attached Service List

19-1000
CHI, HEON-CHEOL
USA

BENJAMIN L. COLEMAN
COLEMAN & BALOGH LLP
1350 COLUMBIA STREET
SUITE 600
SAN DIEGO, CA 92101
619-794-0420
BLC@COLEMANBALOGH.COM

